<html>
<title> - MEALS, RIDES, AND CAREGIVERS: WHAT MAKES THE OLDER AMERICANS ACT SO VITAL TO AMERICA'S SENIORS</title>
<body><pre>[Senate Hearing 112-106]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-106

  MEALS, RIDES, AND CAREGIVERS: WHAT MAKES THE OLDER AMERICANS ACT SO 
                       VITAL TO AMERICA'S SENIORS

=======================================================================

                                HEARING

                               BEFORE THE

                       SPECIAL COMMITTEE ON AGING

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS


                             FIRST SESSION

                               __________

                             WASHINGTON, DC

                               __________

                              MAY 26, 2011

                               __________

                            Serial No. 112-6

         Printed for the use of the Special Committee on Aging




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





         Available via the World Wide Web: http://www.fdsys.gov


                  U.S. GOVERNMENT PRINTING OFFICE
68-180 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                       SPECIAL COMMITTEE ON AGING

                     HERB KOHL, Wisconsin, Chairman

RON WYDEN, Oregon                    BOB CORKER, Tennessee
BILL NELSON, Florida                 SUSAN COLLINS, Maine
BOB CASEY, Pennsylvania              ORRIN HATCH, Utah
CLAIRE McCASKILL, Missouri           MARK KIRK III, Illnois
SHELDON WHITEHOUSE, Rhode Island     JERRY MORAN, Kansas
MARK UDAL, Colorado                  RONALD H. JOHNSON, Wisconsin
MICHAEL BENNET, Colorado             KELLY AYOTTE, New Hampshire
KRISTEN GILLIBRAND, New York         RICHARD SHELBY, Alabama
JOE MANCHIN III, West Virginia       LINDSEY GRAHAM, South Carolina
RICHARD BLUMENTHAL, Connecticut      SAXBY CHAMBLISS, Georgia
                              ----------                              
                 Debra Whitman, Majority Staff Director
             Michael Bassett, Ranking Member Staff Director












                                CONTENTS

                              ----------                              

                                                                   Page

Opening Statement of Senator Herb Kohl...........................     1
Statement of Senator Bob Corker..................................     2
Statement of Senator Bill Nelson.................................     3
Statement of Senator Mark Udall..................................     3
Statement of Senator Bob Casey...................................     4

                           PANEL OF WITNESSES

Statement of Rosalynn Carter, President, Rosalynn Carter 
  Institute for Caregiving, Americus, GA.........................     5
Statement of Kathy Greenlee, Assistant Secretary, Administration 
  on Aging, Department of Health and Human Services, Washington, 
  DC.............................................................     7
Statement of Elizabeth Marshall, OAA Service Recipient, York, PA.    15
Statement of Max Richtman, Chair, Leadership Council of Aging 
  Organizations, Washington, DC..................................    17
Statement of Heather Bruemmer, State of Wisconsin Long-Term Care 
  Ombudsman, Madison, WI.........................................    19
Statement of Timothy Howell, CEO, Senior Citizen Home Assistance 
  Services, Knoxville, TN........................................    21

                                APPENDIX
                   Witness Statements for the Record:

Rosalynn Carter, President, Rosalynn Carter Institute for 
  Caregiving, Americus, GA.......................................    32
Kathy Greenlee, Assistant Secretary, Administration on Aging, 
  Department of Health and Human Services, Washington, DC........    64
Elizabeth Marshall, OAA Service Recipient, York, PA..............    71
Max Richtman, Chair, Leadership Council of Aging Organizations, 
  Washington, DC.................................................    76
Heather Bruemmer, State of Wisconsin Long-Term Care Ombudsman, 
  Madison, WI....................................................    98
Timothy Howell, CEO, Senior Citizen Home Assistance Services, 
  Knoxville, TN..................................................   103

           Responses to Additional Questions for the Record:

Rosalynn Carter, President, Rosalynn Carter Institute for 
  Caregiving, Americus, GA.......................................   113
Kathy Greenlee, Assistant Secretary, Administration on Aging, 
  Department of Health and Human Services, Washington, DC........   115
Max Richtman, Chair, Leadership Council of Aging Organizations, 
  Washington, DC.................................................   123

            Additional Statements Submitted for the Record:

Senator Robert P. Casey, Jr. (D-PA)..............................   125
American Bar Association, Washington, DC.........................   126
Center for Advocacy for the Rights and Interests of the Elderly, 
  Philadelphia, PA...............................................   131
East Tennessee Area Agency on Aging and Disability...............   145
LeadingAge, Washington, DC.......................................   149
National Association of Senior Legal Hotlines, Austin, TX........   152
The OASIS Institute, St. Louis, MO...............................   159

 
  MEALS, RIDES, AND CAREGIVERS: WHAT MAKES THE OLDER AMERICANS ACT SO 
                       VITAL TO AMERICA'S SENIORS

                              ----------                              


                         THURSDAY, MAY 26, 2011

                                       U.S. Senate,
                                Special Committee on Aging,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:03 p.m., in 
Room SD-106, Dirksen Senate Office Building, Hon. Herb Kohl, 
Chairman of the Committee, presiding.
    Present: Senators Kohl [presiding], Nelson, Casey, Udall, 
Manchin, and Corker.

        OPENING STATEMENT OF SENATOR HERB KOHL, CHAIRMAN

    The Chairman. Good afternoon. We'd like to thank all of you 
for being with us today.
    In 1965, the same year Medicare was created, President 
Johnson signed another landmark bill for America's seniors, the 
Older Americans Act. Today the programs authorized by the OAA 
serve more than 10 million older Americans nationwide and over 
386,000 in my State of Wisconsin. They help seniors live 
independently in their communities through home care, home-
delivered and group meals, family caregiver support, 
transportation, as well as other services.
    While the need for such vital OAA services has increased 
during these difficult economic times, Federal funding for OAA 
programs has not. This year OAA programs were cut by 17 percent 
from last year.
    Every five years, Congress takes a fresh look at OAA 
programs to assess whether they are meeting the needs of the 
people they serve. Last September I held a field hearing in 
Milwaukee to gather ideas for strengthening and improving OAA 
programs. Since then we've incorporated many of the 
recommendations we received into priorities, and we will work 
with our colleagues to include these priorities in the new 
bill.
    One of our priorities will address helping the nearly 44 
million family members providing care to an older relative by 
simply asking them: ``What do you need?'' By permitting States 
to assess whether family caregivers need services such as 
respite care and counseling, we can delay more costly 
institutional placements of frail and disabled seniors.
    We also believe we must strengthen the long-term care 
ombudsman program, which provides an advocate for elderly and 
disabled patients to help resolve complaints of abuse and 
neglect in long-term care settings. We will work to expand the 
capacity of the National Ombudsman Resource Center and increase 
the ombudsmen's access to resident health care records so they 
can be more efficient as well as more effective.
    Once again, we'd like to thank you all for being here. We 
look forward to your remarks, particularly those who are 
testifying, on how we can improve the Older Americans Act.
    We turn now to Senator Bob Corker.

                STATEMENT OF SENATOR BOB CORKER

    Senator Corker. Thank you, Mr. Chairman. As always, thanks 
for calling the hearing on the Older Americans Act. We want to 
thank the witnesses here today to share your expertise and 
experience, and I want to especially thank Rosalynn Carter, our 
First Lady, for sharing her experience, and Tim Howell with the 
Senior Citizen Home Assistance Services in Knoxville, for 
coming to Washington to testify on the good work that they are 
doing for seniors of East Tennessee. I look forward to learning 
more about Older Americans Act programs today.
    When the Older Americans Act was passed in 1965, it was 
designed to be the human services support for seniors and 
complement the health support offered by the brand-new 
Medicare-Medicaid programs. This non-medical support envisioned 
by the Older Americans Act was proven to be what seniors need 
to stay in their own homes and independent as long as possible.
    These services, like home-delivered meals, rides to 
appointments and activities, housekeeping and personal care, 
case management, caregiver support, and senior centers, are the 
first--are the sort of home and community-based services that 
seniors and their families across the country rely upon.
    In Tennessee Older Americans Act home- and community-based 
service programs serve about 159,000 people. Almost 2,000 
people are working and learning new skills for future 
sustainable employment because of the senior community service 
employment program. The service providers in Tennessee work 
hard to help seniors maintain dignity and independence with the 
latest innovations and programs.
    For example, Tennessee has started to get in place aging 
and disability resource centers. These centers are to serve as 
a single point of entry for all services a senior may be 
eligible for. I look forward to reviewing the upcoming 
evaluation by the U.S. Administration on Aging of these centers 
and to see if any necessary improvements in the information and 
referral--in this information and referral innovation.
    In 2020--and this is something that I think all of us are 
focused on as we look at future budgets--there will be more 
than 75 million people over the age of 60 and thereby eligible 
for the Older Americans Act programs. With our population 
growing older, these programs become more and more important. 
But at the same time, we are experiencing a fiscal crisis and 
need to seriously review spending on all government programs. 
This means that Older Americans Act programs will have to 
continue to innovate and increase efficiencies to meet 
increasing demand.
    I look forward to working with my colleagues and with our 
panelists to continue to modernize the Older Americans Act so 
that it can be flexible and appropriate to serve the needs of 
our Nation's seniors.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Corker.
    Senator Nelson of Florida.

                STATEMENT OF SENATOR BILL NELSON

    Senator Nelson. Thank you, Mr. Chairman. I want to take 
this opportunity to thank you for your long and distinguished 
career. This is the first opportunity publicly that I could say 
that to you, as we have already discussed privately, because 
last week you announced that you are going to retire from 
public service. Your 24-year career in the United States Senate 
is most distinguished and most appreciated by a lot of folks 
who never get a chance to tell you.
    Like most citizens of the United States that have a 
connection one way or another with Florida, so you do as well. 
The Senator's brother is one of our distinguished citizens in 
Palm Beach.
    I want to, Ms. Carter, thank you for you just keeping on 
keeping on. It was a long time ago when you and your husband 
were campaigning in the Florida primary in 1976, and you have 
been his partner every step of the word in the best sense of 
that word, and you continue today rendering service to our 
country and to our people. So thank you very much.
    Mr. Chairman, I just wanted to mention that, on this 
subject that we are discussing today, that a good example is a 
bill that I've had to file. I say had to file because, for 
example, in all the good stuff that programs like community 
development block grants do, CDBGs, but it has, for example, a 
limitation of 15 percent of the funds that can go to feeding 
programs for seniors. In one particular case, the City of Miami 
wants so desperately to use those, the remaining CDBG funds, 
for assistance to seniors in the feeding programs. But they're 
limited to 15 percent.
    So I filed a bill to raise that a modest amount to 25 
percent, that would give the recipients of CDBGs that 
flexibility to tailor their particular needs of the community, 
in this particular case the needs of senior citizens. I just 
wanted to get that out on the record for the committee.
    The Chairman. Very good. Thank you, Senator Nelson.
    Senator Mark Udall.

                STATEMENT OF SENATOR MARK UDALL

    Senator Udall. Thank you, Mr. Chairman. Good afternoon to 
everybody. I too want to associate myself with Senator Nelson's 
remarks about your leadership. I haven't forgiven you yet, 
Senator Kohl. I want that to be on the record.
    The Chairman. I have your note.
    Senator Udall. But I wanted to welcome our panelists. I 
unfortunately have to step out. I serve on the Intelligence 
Committee, and we're having an important debate on the Patriot 
Act and its reauthorization.
    But I did want to acknowledge the First Lady. The Udall and 
Carter families have been intertwined for many decades and we 
have great respect for their commitment to public service, and 
it's wonderful to see you here today.
    Ms. Greenlee, you were a hit in Pueblo last summer. You 
were a real crowd-pleaser. I can't say the same about myself, 
but thank you for holding a hearing with us in Pueblo. I know 
the chairman and many members of the committee have been 
holding hearings all over our great country on the OAA.
    We have a real opportunity in my opinion to modernize the 
act for a new and unique generation of seniors. I'm a member of 
the baby boom cohort. These Americans, my remarks say, which 
are my people, are fast approaching Medicare eligibility, and I 
think we have different expectations, different experiences, 
about how we can make our golden years really meaningful.
    So this is an important hearing. Mr. Chairman, I look 
forward to working with you to modernize the act in ways that 
take advantage of the potential and the contributions that 
every American can make regardless of their age. So thank you 
again.
    The Chairman. Thank you, Senator Udall.
    Senator Casey.

                 STATEMENT OF SENATOR BOB CASEY

    Senator Casey. Mr. Chairman, thank you. I'll be brief, and 
I'll add a statement to the record. But we want to commend you, 
not only for today's hearing, but of course for your great 
service to the United States Senate. You've been--you've been a 
great leader of this committee, and we'll miss you. We know 
you're going to be here for a while yet. We're not saying 
goodbye yet, but we want to commend you for that.
    To Rosalynn Carter, former First Lady, we're grateful that 
you're here and appreciate your important witness on these 
issues over many years and your leadership and your testimony 
today.
    Assistant Secretary Greenlee, we're grateful to have your 
testimony today as well.
    On the second panel, I'm honored to say as a Pennsylvanian 
we have a former Mayor of York, Pennsylvania, Elizabeth 
Marshall, who is here. We will say hello to her in a more 
personal way a little later, but I am grateful she's here.
    Just a couple words about why we're here. This legislation, 
of course, the Older Americans Act, has often been described as 
the glue that holds a whole series of programs that benefit 
older citizens together. I think what brings us into this room 
today is not just legislation and policy, but a shared 
commitment that we have more work to do as it relates to older 
citizens, those who have fought our wars, worked in our 
factories, taught our children, built our economy, and gave us 
life and love; that we've got an obligation, an enduring, 
abiding obligation, to do all we can. And one of the ways to 
fulfil that obligation is to make sure that we make the right 
choices on legislation and policy, and I'm happy to be part of 
this hearing today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Casey.
    We're honored to have with us today former First Lady 
Rosalynn Carter. We're all familiar with Ms. Carter's tireless 
advocacy alongside her husband, President Carter, on behalf of 
human rights and conflict resolution around the world. She is 
also a dedicated advocate for caregivers and mental health 
issues here at home.
    Mrs. Carter is President of the Rosalynn Carter Institute 
for Caregiving at Georgia Southwestern State University, where 
she leads the institute's efforts to promote the well-being of 
family caregivers throughout our country. She is an inspiration 
for many and a legend in her own right.
    Next we'll be hearing from Kathy Greenlee, the Assistant 
Secretary for Aging at the U.S. Department of Health and Human 
Services. Ms. Greenlee has a wealth of experience advancing the 
health and the independence of seniors and their families. 
Previously Ms. Greenlee served as Secretary for Aging for the 
State of Kansas, as well as the Kansas State Long-Term Care 
Ombudsman.
    We thank you very much for being here, and we'll take your 
comments and testimony, Mrs. Carter.

   STATEMENT OF ROSALYNN CARTER, PRESIDENT, ROSALYNN CARTER 
             INSTITUTE FOR CAREGIVING, AMERICUS, GA

    Mrs. Carter. I'm very pleased to be here this afternoon to 
speak about caregiving, an issue that is very important to me. 
It has been part of my life since I was 12 years old and my 
father was diagnosed with leukemia at age 44. We lived in a 
very small town and all the neighbors rallied around. But I 
still vividly remember going to my secret hiding place, the 
outdoor privy, if you can believe that, to cry. That's where I 
could be alone.
    I was the oldest child, and I felt the burden of needing to 
help care for my father and my three younger siblings. Yet I 
was afraid and didn't always feel like being strong. But my 
mother depended on me.
    Less than a year after my father died, my mother's mother 
died, and my grandfather came to live with us. He was 70 and 
lived to be 95. My mother cared for him at home until he died. 
I helped as much as I could, but I was married and living away 
much of the time. During the last few years of his life he was 
bedridden and totally dependent on her, our family members, 
neighbors, and friends for all his needs.
    My story is not unique, but today the informal support 
networks that were so much a part of my life in a small town--
neighbors, extended family, the church--are not there for 
millions of Americans. Families are fractured and dispersed. 
Women, the traditional caregivers, are now an integral part of 
the work force. Advances in medical science mean we are living 
much longer, yet resources to enable us to live independently 
are sorely lacking.
    We face a national crisis in caregiving, especially for our 
elderly citizens. Most frail elderly and disabled people live 
at home today. About 90 percent of the care they need is 
provided by unpaid, informal caregivers, most often family 
members, providing tasks that only skilled nurses performed 
just a decade ago, and with minimal preparation and training.
    Many of these caregivers are frail and elderly themselves 
and find the burdens of caregiving overwhelming. Consider these 
facts: Older people caring for their spouses have a 63 percent 
higher mortality rate than those of similar age without 
caregiving responsibilities; the stress of caring for a person 
with dementia negatively impacts the caregiver's immune system 
for up to 3 years after caregiving ends, making them more 
susceptible to all kinds of illnesses; caregivers report 
chronic conditions such as heart disease, cancer, and diabetes 
at twice the rates of noncaregivers; and up to 50 percent 
report struggling with depression. It's even higher when caring 
for a loved one with dementia.
    While experts estimate the value of care provided by unpaid 
informal caregivers to be more than $375 billion annually, many 
caregivers have to reduce their working hours or even quit 
their jobs, losing health and retirement benefits worth 
hundreds of thousands of dollars.
    The economic consequences are devastating. Our nation's 
family caregivers are enduring both physical and mental 
problems and even dying sooner because of the responsibilities 
in caring for a loved one.
    Mr. Chairman, there are only four kinds of people in the 
world: those who have been caregivers, those who currently are 
caregivers, those who will be caregivers, and those who will 
need caregiving. That's all of us. Caregiving knows no 
geographic or political boundaries.
    The Rosalynn Carter Institute for Caregiving at Georgia 
Southwestern State University near my home town is doing 
groundbreaking work to help Americans with their challenging 
caregiving responsibilities. In one of our programs, with 
support from our corporate partner Johnson and Johnson, we 
undertook a national assessment of the state of caregiving in 
our country. We discovered innovative programs proven to be 
effective, but they were not and are not reaching people in 
need.
    One of them focuses on the spouses of people with 
Alzheimer's disease. It provides concrete advice on how to deal 
with difficult behaviors like wandering, repeatedly asking 
questions, and agitation. It also focuses on taking care of 
oneself and on simple techniques to reduce stress. A woman at 
home who's been through our program told me that it changed her 
life. She said she was overwhelmed by difficulties and stresses 
of assuming care for her mother after her father died 
unexpectedly. She now is proud of being able to allow her 
mother to stay in her home. Just think what a difference this 
kind of program would make in lives of caregivers across this 
country.
    The RCI, which is what we call the Rosalynn Carter 
Institute, has been working in Georgia and in demonstration 
sites around the country to introduce these interventions at 
the community level. But much more needs to be done.
    There must be a fundamental shift in how this nation values 
and supports caregivers and caregiving. Last October the 
Rosalynn Carter Institute released a very important report, 
``Averting the Caregiving Crisis: Why We Must Act Now.'' This 
report is the result of 3 years of intensive study which 
involved hundreds of experts. I urge each of you to read it 
carefully, for it contains a blueprint for a national 
initiative to support family caregivers.
    Its recommendations include: better assessments of 
caregiver health; increased use of evidence-based interventions 
in communities across the country; and greater flexibility in 
both public and private insurance programs to provide training 
and support for family caregivers. Its most important 
recommendation, however, is a call for leadership. We propose a 
National Quality Caregiving Task Force in the President's 
office, with shared leadership between the Secretary of Health 
and Human Services and the Secretary of Veterans Affairs. We 
have the knowledge base to solve the caregiver crisis, and we 
are already spending billions of dollars which can be used much 
more effectively.
    These are challenging times for our country, with extreme 
pressure on federal, state, and local resources. Families and 
communities are struggling to cope. Yet if we fail to act now, 
the consequences for those in need of care will be increased 
rates of institutionalization, higher risk of abuse and 
neglect, unnecessary isolation, and perhaps even premature 
death. For family caregivers it will mean much greater burden, 
increased risk of physical or mental health problems, and more 
financial hardships. For our already overtaxed health care 
system, it would be impossible to find the work force to 
deliver high-quality institutionalized care.
    The overall impact would be an unprecedented burden. In 
human terms, it will lead to unparalleled suffering for 
millions of older Americans and their family caregivers. We 
cannot let this happen.
    Thank you for the opportunity to speak with you about this 
most significant national issue. Mr. Kohl, thank you.
    [The prepared statement of Rosalynn Carter appears in the 
Appendix on page 32.]
    The Chairman. Thank you very much, Mrs. Carter.
    We'll hear from Ms. Greenlee.

       STATEMENT OF KATHY GREENLEE, ASSISTANT SECRETARY, 
    ADMINISTRATION ON AGING, DEPARTMENT OF HEALTH AND HUMAN 
                    SERVICES, WASHINGTON, DC

    Ms. Greenlee. Thank you. Senator Kohl, it's good to see you 
again. Senator Corker. Members of the Special Committee on 
Aging: Thank you for the opportunity today to talk about the 
reauthorization of the Older Americans Act. In preparation for 
this process, at the Administration on Aging we went through 
the most extensive outreach effort in the history of the agency 
to seek input from all across the country, from family 
caregivers, seniors, and other individuals providing support. 
We have a lot of information that we have gathered about the 
value of these programs and look forward to continuing to work 
with this committee as we take up the challenge of 
reauthorization.
    Senator Kohl, I would like to join your colleagues in 
commending you in your service on behalf of older Americans. I 
think I have mentioned to you before I first heard of you from 
our mutual friend George Petrosky, the former Wisconsin long-
term care ombudsman. Not only have you been instrumental in 
helping seniors; you have paid particular attention to those 
seniors in nursing homes in this country. And many of us--I 
think I can speak on behalf of the whole aging network--have 
valued your contributions and will miss your leadership. So 
thank you for your service.
    It's also wonderful to appear today with Mrs. Carter, a 
tremendous honor to be here. I met Mrs. Carter last fall when I 
traveled to Americus to the Rosalynn Carter Institute to talk 
specifically about what we need to do to continue to advance 
the cause and the supports for caregivers. She had released her 
report about that same time.
    Mrs. Carter is a leader in the field of caregiving. The 
work that they're doing at the institute is innovative. The 
leadership she is asking for she is herself providing. I also 
want to acknowledge her work in the field of mental health, not 
something we will spend as much time on at this hearing. But 
Mrs. Carter's work in mental health is really important for 
individuals dealing with mental health and their family 
members.
    So I applaud your work, Mrs. Carter. It's an honor to be 
here.
    As you know and mentioned, I was the Secretary of Aging in 
the State of Kansas. I have served now for 2 years as the U.S. 
Assistant Secretary for Aging, and in both of those capacities 
I have listened to and spoken to thousands of individuals and 
families in a variety of settings. And I have seen first-hand 
how the Older Americans Act reflects the values that we have in 
this country: supporting independence, helping people maintain 
their health and well-being so they are better able to live 
with dignity, protecting the most vulnerable among us, and 
providing basic respite care and other supports for families so 
that they are better able to take care of loved ones in their 
homes and their communities for as long as possible. This is 
what Americans of all ages overwhelmingly tell us they prefer, 
to age at home in their communities.
    One of the real strengths of the Older Americans Act is 
that it doesn't matter if an individual lives in a rural area, 
a frontier area, or an urban center. The programs and the 
community-based supports are flexible enough to meet the needs 
of individuals in all of these diverse communities and 
settings.
    Over the past year alone, nearly 11 million older Americans 
and their family caregivers have been supported through the 
Older Americans Act comprehensive community-based system. These 
services, as you mentioned, Senator Kohl, complement medical 
and health care systems. They help to prevent hospital 
readmissions. They provide transportation to doctor's 
appointments and support some of life's most basic functions, 
such as bathing or having a home-delivered meal.
    This assistance is especially critical for nearly 3 million 
seniors who receive intensive in-home services, half a million 
of whom would otherwise qualify for nursing home admission.
    For more than a year, as I have mentioned, we have received 
reports from more than 60 reauthorization listening sessions 
around the country, and have received on-line input from a 
variety of sectors, individuals, and organizations and their 
caregivers. This input represents the interests of thousands of 
individuals with regard to the Older Americans Act's services.
    During this process we heard an overriding issue that Mrs. 
Carter has already spoken to today, and which was also advanced 
through the Vice President's Middle Class Task Force, and that 
is the issue with regard to families. Families are doing the 
best that they can, but they're struggling between balancing 
the demands of work, child care, and elder care. Families tell 
us that they need some basic assistance in supporting their 
care for their loved ones.
    During our process of soliciting input, we heard that the 
Older Americans Act is working and it needs to continue to be 
flexible. We also heard two particular themes that I want to 
suggest in terms of further conversation. One suggestion or 
recommendation that we have heard is that we continue to 
improve the program outcomes by embedding evidence-based 
interventions and disease prevention programs, encouraging 
comprehensive person-centered approaches, providing flexibility 
to respond to local nutrition needs, and increasing efforts to 
fight fraud and abuse.
    Second, we need to remove barriers and enhance access, 
extending caregiver supports to parents who care for their 
adult children with disabilities, providing ombudsman services 
to all residents of nursing facilities, not just seniors, and 
using aging and disability resource centers as single access 
points to provide information regarding public and private 
resources for long-term supports and services.
    Let me give you three brief examples we would like to 
discuss as we continue our work: One, we should ensure that we 
utilize the best evidence-based interventions for helping older 
individuals manage chronic disease. These have been effective 
in helping people adopt healthy lifestyles, improve their 
health status, and reduce their use of hospitals and emergency 
room visits.
    We want to improve the Senior Community Services Employment 
Program by integrating it with other senior programs. As you 
know, the President has recommended in 2012 through this budget 
process that we transfer the older workers program from the 
Department of Labor to the Administration on Aging.
    We would also like to continue to combat fraud and abuse of 
both Medicare and Medicaid by permanently establishing the 
authority for the operation of the senior Medicare patrol 
program as a basic component of the Older Americans Act, so we 
can continue to use retired volunteers to help us detect and 
deter fraud in the area of Medicare and Medicaid.
    The Older Americans Act has historically enjoyed widespread 
bipartisan support. Based in part on this extensive public 
input, we believe that reauthorization can strengthen the Older 
Americans Act and put it on solid footing to meet the 
challenges of a growing population of seniors, while continuing 
to carry out the critical mission of helping elderly 
individuals maintain their health and independence in their 
homes and communities.
    Thank you again, Senator Kohl and Senator Corker, for your 
leadership. I look forward to working with you and the rest of 
your committee. Thank you.
    The Chairman. Thank you very much, Ms. Greenlee.
    [The prepared statement of Kathy Greenlee appears in the 
Appendix on page 64.]
    We'll now commence questioning. We'll start with Senator 
Corker.
    Senator Corker. Thank you, Mr. Chairman. I'll be brief.
    Again, thank you both for your testimony. Mrs. Carter, I 
notice the chairman said you were a legend in your own right. 
Certainly not in relation to anybody up on this panel, we serve 
with a lot of folks here that are a legend in their own mind.
    [Laughter.]
    Senator Corker [continuing]. So we thank you so much for 
having earned that and certainly bringing such focus on this 
issue. But thank you very much for your testimony.
    I have a few organizational issues to ask Ms. Greenlee 
about. I know the President's budget this year transfers some 
additional responsibilities into your agency, the Title VSenior 
Community Services Employment Program, the State Health 
Insurance Assistance Program, the CLASS Act. I know you were 
talking about some of the flexibilities and other kind of 
things that need to happen within your organization. Is that 
going to, in your opinion, distract at all from your ability to 
efficiently carry out the other responsibilities of the 
organization?
    Ms. Greenlee. No, Senator Corker. The agency has a 45-year 
history and experience in providing community supports to 
individuals. One of those components is the economic security 
of seniors, and we have a variety of programs that have worked 
on pension counseling, benefits outreach. Bringing the older 
workers program to AOA will help strengthen our mission, not 
detract from it. It is the only one of the Older Americans Act 
programs that we do not administer.
    The senior health insurance assistance programs are 
primarily delivered at the local level through our area 
agencies on aging. And the reason for the CLASS Act, the 
underlying need for the CLASS Act, is to provide a different 
type of option for individuals to maintain their independence 
in the community. We feel like we have a wealth of knowledge to 
support these other programs and can make them all work to help 
individuals, people with disabilities, and seniors remain 
independent.
    Senator Corker. I know that Secretary Sebelius has 
mentioned that the CLASS Act is an unsustainable program unless 
numbers of changes are made. I know that you are probably 
closest to it since, as you mentioned, you're going to be 
involved in implementing it. Are there things that you are 
already looking at, major structural changes to actually cause 
the CLASS Act to be sustainable? I know there are people on 
both sides of the aisle who have a lot of concerns about that.
    Ms. Greenlee. Senator, as you have referenced, I was 
designated officially in January as the administrator of the 
CLASS program at the Administration on Aging. The Secretary and 
I have both had opportunity to testify, most specifically on 
the House side, and committed ourselves and our efforts to the 
financial solvency of this program.
    We both agree that there are reforms that need to be made 
to the program in order to sustain the program and make it 
financially sound for 75 years, as required by the law. We will 
this fall issue preliminary regulations with regard to the 
program and at that time be able to provide more information 
about the kinds of things that we need to do through a 
regulatory process to strengthen the program.
    There are things that we were looking at, considered by the 
Senate before the bill was passed, that we will return to first 
as we find ways to support the program for its financial 
solvency.
    Senator Corker. As you go about looking at implementing it, 
I know there has to be some investments made, if you will, 
through your organization to begin that implementation. How are 
we accounting for that? Is that something that goes into the 
actual cost of the CLASS Act itself or is that something--how 
is that being accounted for?
    Ms. Greenlee. Senator, as you know, the Department of 
Health and Human Services was given money to implement the 
Affordable Care Act. It is from those funds that we have 
currently been paying for our operational costs. We have made 
sure that we can identify all the staff who are working on the 
CLASS program full time and those of us who split our time 
between CLASS and the Administration on Aging's traditional 
work, so that we can fairly account for the work that we're 
doing. I believe we're adequately handling the accounting that 
needs to be done.
    Senator Corker. I know there's going to be a tremendous 
amount of focus on Medicare and its sustainability over the 
course of this summer. My hope is that we will in a bipartisan 
way figure out a way to make it solvent. We all know it's going 
to be insolvent as is. The trustees are stating by the year 
2024.
    As you move ahead with the CLASS Act, I think people 
believe it's already at that stage as it's been set up, and I 
do hope you'll let us know of some of the major frailties that 
exist there and continue to keep us apprised of that.
    We thank you for your service, and I look forward to having 
several questions for the second panel.
    Thank you, Mr. Chairman.
    Ms. Greenlee. Thank you, Senator.
    The Chairman. Thank you, Senator Corker.
    Senator Casey.
    Senator Casey. Thank you, Mr. Chairman.
    I want to thank you both for your testimony and the 
personal witness that you bring to these issues.
    I wanted to start with our former First Lady, Mrs. Carter, 
on a question that relates to the specialized training that is 
often needed in these circumstances. I have been over many 
years as a State public official for a decade and now in my 
fifth year in the Senate overwhelmed by the kind of care that's 
delivered by direct care workers, how strong they are, how 
dedicated they are, willing to do backbreaking and sometimes 
impossible, seemingly impossible work on behalf of those who 
need that care and on behalf of their families.
    But I wanted to ask you about it. I noted in your testimony 
on the four recommendations that you made, as well as Assistant 
Secretary Greenlee, about evidence-based programs. I wanted to 
get your sense of that, based upon your experience, as to 
evidence-based programs on this question of specialized 
training and preparing folks for doing that difficult work. 
What can you tell us about that in your experience?
    Mrs. Carter. Well, we've been working with evidence-based 
programs for a good while now at the Rosalynn Carter Institute. 
One that we are working on--we're doing six in all--with 
Johnson and Johnson. Johnson and Johnson has been great, 
because they were the first ones that did clinical trials in 
nursing homes working with those who were suffering from mental 
disorders. So they've been very good to us.
    But we have six programs and a couple of them are 
Alzheimer's. We are actually doing an Alzheimer's one at home. 
We train people to go into the homes. They don't have to come 
in. When we were trying to get them to come to the Institute 
for training they didn't want to. Caregivers don't want to come 
in, and they don't want to admit they're caregivers. So many of 
them don't want to admit they have to have help; it's just 
their job to do what they should do for a family member.
    But we send them into the houses. When they find out that 
this person can come to the house, they welcome them. So we go 
I think 6 weeks, go in a couple times a week. And it's just 
made--we have found that it increases the time people can stay 
at home without being institutionalized. The depression is 
lifted to a certain degree, and it just--it's working.
    We're also trying this in other places around the country. 
But we're working with three different ones now, and we're kind 
of comparing them to see which is best for Alzheimer's. We've 
done one with cancer. And we've had--at the Rosalynn Carter 
Institute, we had everybody that we knew of, I think, in the 
United States who was working on evidence-based programs. I 
think we had one person from Ireland that came to that meeting.
    We have had great reports, and actually it just helps the 
caregiver so much when the program works. It's cost-effective 
because they don't have to try things and try things. They just 
know what works, and if they will follow the guidelines of the 
program it can help.
    So we just need evidence-based programs in the whole 
country. It's going to be a long time before we get there. But 
we're really working and doing research right now on those 
programs in many parts of the country.
    Senator Casey. I thank you for that. I know that part of 
what we're trying to do is to not only improve care and provide 
the kind of highest level of care we can, but also to provide 
options for the work force. Sometimes I guess they're described 
as career ladders, ways for people to move up if they're at 
entry level, in an entry level position.
    So I think that evidence-based, evidence-based research and 
the care that can come from that is going to be critically 
important.
    I know I've got about 20 seconds, but, Assistant Secretary 
Greenlee, anything that you wanted to add on this question of 
training or the evidence-based methods?
    Ms. Greenlee. This will state the obvious. It's such a 
broad topic that it will take many different Federal 
organizations working together. We have a community living 
initiative within HHS that looks at issues with regard to 
people with disabilities, as well as seniors. Senator Corker 
mentioned the CLASS Act. This was identified even in the law of 
the CLASS Act, how will we support the public programs that we 
will have in the future, such as the CLASS Act; the Medicaid 
and Medicare programs; the programs that we have under the 
Older Americans Act; and disability programs, with a paid work 
force that allows them to have meaningful career ladders, as 
well as a skill set necessary to serve an increasingly aging 
population. It will take both a paid and unpaid workforce to 
provide the care that's needed in this country.
    Senator Casey. Thank you very much.
    The Chairman. Thank you, Senator Casey.
    Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman, and thank both of 
you for being here and we appreciate it very much. The State of 
West Virginia appreciates the work that you have done and also 
the assistance that we get in the Older Americans Act and what 
it's done for our State.
    As you know, we have the second most aged State in the 
Nation per population and probably one of the most rural 
States. So it's quite costly for us to give the services that 
are needed. But we've expanded those, and I think the word that 
you mentioned earlier was ``flexibility.'' I can't explain 
enough how much flexibility that we need in some of these 
States so that the money is not sliced to where transportation 
is one, meals on wheels is another.
    The formula that's used for small States and rural States 
such as myself, and there's more populated States--and I know 
that the funding mechanism is based on population. It should be 
based on the services that are given, if you could just 
consider that. We serve an awful lot of people in West Virginia 
and our funding is much lower, but we're feeding many, many, 
many more than other States that might not have the need as we 
have.
    With that, I think you might be aware of some of the 
programs we've expanded, the FAIR programs and the Lighthouse 
programs. We did some things and during the most difficult 
recession times we expanded programs because it was a priority 
of ours to allow our seniors to live in dignity in their own 
homes, with a little bit of assistance.
    Need-based is a big thing in West Virginia because we have 
a lot of seniors who want to be able to contribute and pay 
their way or pay part of their way if they can. So we try to 
develop flexible plans to where they felt like they were still 
contributing, but yet they just couldn't find the service 
anywhere. A lot of times if you're on a certain cuff and you 
get--if you're not within certain guidelines as far as income, 
the service is not even offered. I think that's something that 
should be considered, too, because it's not for a lack of need. 
They just can't find anyone else to provide those services, and 
they're willing to pay. So we hope those flexibilities are 
taken into consideration.
    But in transportation, that's the one that we're having 
some concerns about. I don't know if--I support the OAA lock, 
stock, and barrel. So tell me what you think you can do to help 
us help ourselves more?
    Ms. Greenlee. Senator, we have transportation support that 
we can provide through the Older Americans Act. Transportation 
is such a huge issue that I don't think there's a way to 
completely address transportation needs with such a program of 
this size. We need to talk to other partners at the Federal 
level and at the State and community level to figure out what 
is the best way to provide transportation services.
    I think one of the best things that we can do--and for this 
answer I'm actually relying on my Kansas experience--is to make 
sure that we remove any barriers, so that if we provided 
support for, say, a van at any level with government funds, we 
use it to the best ability in serving all populations.
    So I think we need to be innovative, work with our 
transportation partners, and figure out how we can make sure 
that we're not in the way of what needs to happen in the 
community to get the job done.
    Senator Manchin. What recommendation do you have--I know, 
Mrs. Carter, from your experience. What recommendation would 
either one of you have, how we can be more efficient with the 
dollars we have? As you know, the budget constraints are going 
to be tough on all of us. But by setting the priorities we can 
make sure that the dollars we have are in place, but yet they 
go further. And we're all growing older and in need of the 
services, I'm sure.
    But is there anything that we can do that would give you 
the efficiencies or help you have more efficiencies? Have we 
tied your hands in any way, Mrs. Carter?
    Mrs. Carter. One of the greatest helps would be to have 
data so we could know how to allocate the resources. One of the 
recommendations that our study has made is that we use the 
Behavior Risk Factor Surveillance System that the Centers for 
Disease Control has developed. They have developed a caregiving 
module. If we could use that in the states in the OAA, it 
wouldn't cost very much, because the question is not--it's not 
on the survey--all surveys--and you have to ask for it.
    So we checked to see--Georgia doesn't have it in their 
survey. So we checked to see how much it would cost, and it 
would cost just $21,000 a year to get that data in Georgia, and 
that would be so helpful in cutting costs.
    Ms. Greenlee. For about a decade now, the Administration on 
Aging has been focused on evidence-based practices. We do this 
a lot in the field of Alzheimer's support for individuals and 
their family members, the evidence-based practices that I 
mention in my testimony.
    Those of us who work in the social services arena 
understand that science is not just for people who are in the 
laboratory, that good evidence, good outcomes in science is a 
critical part of delivering quality and effective social 
service programs. That's why we're suggesting that we continue 
to work in this effort with real regard to the health programs 
in the Older Americans Act, to make sure that we've got good 
outcomes.
    I agree with Mrs. Carter about the global issue of data. 
Our ability to continue to research our programs makes the case 
with regard to their effectiveness. Their ability to provide 
cost savings to other programs such as Medicare and Medicaid is 
also a critical component of this conversation as we figure 
out, as we go forward, how to balance the supports that are 
needed with the increasing pressures of more seniors and the 
struggling budgets at the Federal and State level.
    Senator Manchin. I'll wait until my second round. Thank you 
very much, both of you.
    The Chairman. Thank you very much, Senator Manchin, and 
we'd like to thank you both profusely for being here today. You 
have made tremendous contributions today, as you have in the 
past, and again we appreciate your being here. Thank you so 
much.
    Ms. Greenlee. Thank you, Senators.
    The Chairman. We'll turn now to the second panel, if you'll 
step up to the table, please. First we'll be hearing from 
Elizabeth Marshall, a recipient of home-delivered meals. Ms. 
Marshall was elected as the first female Mayor of York, 
Pennsylvania, in 1977. She also served as a member of the York 
City Council.
    Next we'll be hearing from Max Richtman, who serves as 
Chairman of the Leadership Council of Aging Organizations, a 
coalition of 66 national aging organizations. Mr. Richtman is a 
former staff director at this committee and is currently the 
Acting CEO of the National Committee to Preserve Social 
Security and Medicare. Welcome.
    Next we'll be hearing from Heather Bruemmer, who is the 
Executive Director and State Ombudsman for the Wisconsin Board 
on Aging and Long-Term Care. She also chairs the State's Long-
Term Care Council and serves on the Coalition of Wisconsin 
Aging Groups' Advisory Council.
    Senator Corker has a witness from Tennessee.
    Senator Corker. Yes, sir. I'd like to introduce Timothy 
Howell, who is the Chief Executive Officer of the Senior 
Citizen Home Assistance Services, a nonprofit that provides in-
home caregiving in East Tennessee. SCHAS aims to improve the 
lives of seniors and persons with disabilities while 
maintaining their independence and dignity. Mr. Howell has 
worked for SCHAS for 10 years, has been the CEO since 2008.
    As CEO, Mr. Howell oversaw the completion of Renaissance 
Towers, an assisted living community targeted to low-income 
seniors who wish to pay for their own care. He's President of 
the Tennessee Association of Homemaker Services Providers, a 
member of the National Council on Aging, and the Downtown 
Rotary.
    Thank you for traveling all the way from East Tennessee to 
be here.
    The Chairman. Thank you.
    We'll hear now from Mrs. Marshall.

 STATEMENT OF ELIZABETH MARSHALL, OAA SERVICE RECIPIENT, YORK, 
                               PA

    Ms. Marshall. Thank you very much.
    This is addressed to you, Chairman Kohl, and to Senator 
Casey and other members of the committee. Thank you for 
inviting me to testify before you today. I am pleased to be 
able to share with you my thoughts on the Older Americans Act. 
Throughout my life I have always strived to be an independent 
woman. Born in 1918, I'm a child of the Great Depression and 
have continued to live by the values of economy, thrift, and 
self-reliance that I learned during my formative years.
    My husband Howard and I married after he returned from 
serving overseas. We moved to York, Pennsylvania, in 1948 and 
we bought our first and only home there in 1954. This is the 
same house I live in today. Our two sons still live near me, 
and my daughter resides in New Hampshire.
    An old song by Joseph Burke called ``A Little Bit 
Independent'' is my theme song, if you will: ``A little bit 
independent in your walk, a little bit independent in your 
style.'' I have worked throughout my life to be an independent 
woman, to find my strengths and use them, whether in service to 
my family, community, or country.
    In the early 1960s I increasingly became involved in the 
York community, which was undergoing a turbulent time, and 
eventually in 1971 I was elected the first member of city 
council and later served--oh, I'm sorry. It led to my election 
to York City Council in 1971, and then I was elected as the 
first female Mayor of York in 1977. I later served as Deputy 
Comptroller for the City of York. So I know something about 
government and the challenging choices faced by decisionmakers 
as to the best use of taxpayer dollars.
    After my public service career, I worked as a real estate 
agent for 18 years. I retired just 11 years ago at 81 years of 
age. I have been on my own now for 10 years since my husband 
passed away in 2001.
    Many of us in our neighborhood are long-time residents. Our 
tight-knit community is essentially aging in place and helping 
each other remain in our homes for as long as possible. I am 
proud to still be an independent woman. I want to be able to 
stay in my home, near my family and neighbors.
    I am grateful that the York County Area Agency on Aging is 
there for me and for thousands of other seniors in my 
community. I have a care manager at the Area Agency on Aging. 
She was able to connect me to the home-delivered meals program 
and if I need additional support, services, or even just 
information, she will be ready to assist me and my family.
    Three times a week a volunteer from the local senior center 
delivers both hot and cold meals to me in my home. I appreciate 
the meals service, and it's also nice to have a friendly 
visitor check in to make sure I'm safe and doing well.
    I understand that the home-delivered meals service is 
funded in part through the Older Americans Act. The act allows 
the coordination and provision of many other in-home and 
community programs. There's even a part of the act focused on 
family caregivers, to help them help us.
    And we can't forget our senior centers, which are more 
important than ever to help older adults stay connected to 
their community. Many recipients of services are like me; they 
just need one or two little bits of help. Others may need more 
services. But the act allows seniors to receive just what they 
want to stay healthy. Even if you need a high level of support, 
receiving this care in your home is still more affordable for 
you and the taxpayers than care in a nursing home.
    As our leaders struggle to balance the budget and reduce 
the deficit, the cost savings that Older Americans Act programs 
generate are even more critical.
    My story--my story is not necessarily a unique one. My 
peers and I have served our families, communities, and country 
for many years, and with the right balance of help we can 
continue to remain contributing members of our society and 
maintain our health, independence, and dignity for as long as 
possible. I'm glad to be able to continue living in my home of 
57 years, where I can still be, quote, ``a little bit 
independent in my walk.''
    The Older Americans Act allows you to retain your dignity, 
health, and independence with just a little bit of support. I 
urge this committee and your colleagues in the Senate and House 
to understand how vital these little bits of support are to 
millions of older Americans determined to age in place. We need 
to reauthorize the Older Americans Act in a timely and 
bipartisan fashion and prepare our country for the wave of baby 
boomers standing behind my generation.
    Thank you, Senator Kohl and members of the Aging Committee, 
for inviting me to share my thoughts about the Older Americans 
Act with you here today.
    [The prepared statement of Elizabeth Marshall appears in 
the Appendix on page 71.]
    The Chairman. Thank you, Mrs. Marshall. That was a 
beautiful statement.
    Ms. Marshall. I'm sorry, I didn't hear that.
    The Chairman. That was a beautiful statement. Thank you so 
much.
    Ms. Marshall. Oh, thank you.
    The Chairman. Mr. Richtman.

 STATEMENT OF MAX RICHTMAN, CHAIR, LEADERSHIP COUNCIL OF AGING 
                 ORGANIZATIONS, WASHINGTON, DC

    Mr. Richtman. Mr. Chairman, members of the committee: First 
of all, let me say to Mrs. Marshall: You're a tough act to 
follow, but I'll do my best.
    On behalf of the Leadership Council of Aging Organizations, 
I'm honored to testify before the Special Committee on Aging 
about the LCAO Older Americans Act reauthorization consensus 
document. LCAO is a 66-member coalition of diverse national 
nonprofit organizations dedicated to preserving and 
strengthening the well-being of America's older population. 
Historically, LCAO has played a significant leadership role in 
past reauthorizations of the Older Americans Act.
    In preparation for this year's reauthorization, we've 
worked for over 6 months to develop the consensus document that 
we have submitted to the committee. Under the leadership of the 
LCAO community services committee, individual organizations 
presented their ideas and suggestions for improving the Older 
Americans Act. These ideas were incorporated into the consensus 
document, which was enthusiastically endorsed by the full LCAO 
at our April 6th meeting.
    The LCAO Older Americans Act reauthorization document 
contains 98 recommendations. They do a number of things. They 
reinforce key existing priorities in the current statute and 
seek to address challenges and opportunities brought about by 
the exponential growth of our older population. We agree that 
the Older Americans Act continues to work very well for older 
adults across the country. The act's core mission, 
infrastructure, and programs remain relevant, effective, and 
very much relied upon by older adults and caregivers.
    The problem we face, of course, is insufficient funding, 
which makes it difficult for the aging network to carry out 
Older Americans Act priorities as established by Congress in 
past reauthorizations. There simply is not enough money for all 
the needs that exist.
    On that note, I'd like to thank you, on behalf of our 
organization, Mr. Chairman, for your request to the General 
Accounting Office to examine the true magnitude of this unmet 
need. We also acknowledge that the Older Americans Act, like 
other statutes, is a dynamic document that can and must change 
to address emerging needs and embrace new innovations.
    It's notable that the Older Americans Act is up for 
reauthorization the same year that the first of the baby 
boomers turn 65. Not only are the numbers of older adults 
increasing at a historic rate, but this population is becoming 
much more diverse. Additionally, as older Americans live longer 
they face growing health and economic challenges. All of these 
issues are converging to place tremendous strain on the aging 
network, a network that is already overburdened, but eager to 
expand capacity and enhance planning to meet the demands and 
opportunities presented by our aging population.
    Particularly in times of fiscal restraint, times such as 
now, we acknowledge that improvements can be made in the 
efficiency and effectiveness of the Older Americans Act in its 
delivery of core services and how it interacts and coordinates 
with other Federal programs that serve older adults. There are 
recommendations throughout the document we presented that call 
for improved coordination of services and identification and 
dissemination of best practices that already occur in local 
communities in order to strengthen the aging network 
nationwide.
    LCAO also believes it is crucial to strengthen evaluation, 
research, and demonstration of aging services. This will not 
only empower the aging network to continue implementing best 
practices but will also state with authority the degree to 
which the Older Americans Act provides a cost-effective way for 
older adults to remain in their own homes with health and 
economic security.
    The Older Americans Act programs, such as in-home 
assistance, home-delivered and congregate meals, and respite 
for family caregivers, benefit individuals and their families. 
They also save Federal and State government resources from 
being spent on otherwise unnecessary care in hospitals and 
nursing homes.
    On behalf of LCAO, I applaud this committee for its 
leadership in calling attention to the upcoming Older Americans 
Act reauthorization. We urge Congress to continue the long 
tradition of bipartisan and timely reauthorization of this 
important statute while providing the funding needed for Older 
Americans Act programs to keep older Americans independent and 
productive.
    Thank you again for the opportunity to testify today on 
behalf of the 66 members of the LCAO, and I welcome your 
questions and comments. Thank you.
    [The prepared statement of Max Richtman appears in the 
Appendix on page 76.]
    The Chairman. Thank you, Mr. Richtman.
    Heather Bruemmer.

  STATEMENT OF HEATHER BRUEMMER, STATE OF WISCONSIN LONG-TERM 
                  CARE OMBUDSMAN, MADISON, WI

    Ms. Bruemmer. Chairman Kohl, Ranking Member Corker, and 
members of the committee: Thank you so much for this 
opportunity to testify today. I'm the State Long-Term Care 
Ombudsman of Wisconsin and also represent the National 
Association of State Long-Term Care Ombudsman Programs, better 
known as NASOP.
    It is a privilege and honor to be here on behalf of the 
ombudsman advocates who work daily tirelessly to assure the 
rights and well-being of hundreds of thousands of vulnerable 
residents living in long-term care settings throughout the 
Nation. The significance of this effort to reauthorize the 
Older Americans Act cannot be overestimated. It is a primary 
duty of this Nation to protect our most vulnerable individuals 
and to preserve their pride and dignity.
    Everyone has a history, a story. We all create memories. So 
it's our responsibility to assure that all members of our 
rapidly aging population have the proper access to services 
that will respect their right to be who they are and who 
they've been.
    The Older Americans Act provides critically needed home- 
and community-based services that allow older adults to remain 
for as long as possible in the community with needed support. 
Since 1978, the ombudsman program has been a core component of 
the Older Americans Act. It is the only program in that act 
that specifically serves consumers provided by residential care 
facilities.
    I think that we all appreciate and value the importance of 
living in our own home. We heard from Elizabeth today it's very 
special, and as a result there has been a remarkable growth in 
the amount of home- and community-based services available for 
seniors in Wisconsin. In November of 2008 we had a significant 
trend happen. We have more assisted living beds in the State of 
Wisconsin than we do nursing home beds.
    Wisconsin was one of the original pilot States when the 
long-term care ombudsman was first created by Congress, and our 
State has continuously relied and improved the advocacy 
resources available to aging consumers. The Board on Aging 
formed in 1981. We had five ombudsman. Today we have 15 
outstanding regional ombudsman and over 100 volunteers serving 
95,000 clients in nursing homes and assisted living facilities, 
and we also provide services through the Medicaid waiver 
programs.
    Nationally, ombudsman visited 79 percent of all nursing 
homes on a quarterly basis last year, yet only 46 percent of 
assisted living facilities and similar homes. Throughout the 
country, it has become increasingly more difficult for 
ombudsman to participate in visits for assisted living. The 
inability of Congress to provide sufficient funding is 
certainly not the result of trying by the champions of the 
long-term care ombudsman program, such as yourself, Chairman 
Kohl, and the members of this committee. Each year the program 
resolves hundreds and thousands of complaints and, 
interestingly, 77 percent of these complaints are resolved to 
the satisfaction or partially resolved to the client's needs.
    We spend time in nursing homes. If we are able to address 
the needs of people living in assisted living with the same 
intensity as we do the concerns in nursing homes, our numbers 
would be astronomical.
    The long-term care program offers significant protections 
to residents. The complexity and diversity of consumers today 
who live in these facilities is growing. We have falls, medical 
mismanagement, medication errors, pressure ulcers, and abuse 
situations, and unfortunately they are on the rise. We spend a 
tremendous amount of time investigating these incidents and 
also provide education and guidance to facility staff to help 
prevent reoccurrences of these problems.
    Unfortunately, we are still confronted with the reality of 
inadequate resources, but we keep moving forward and protecting 
our most vulnerable.
    Resident and family councils are vehicles by which open 
communications are really important in order to deliver 
excellent quality of life and care. When considering this 
reauthorization, it is important with this requirement to 
maintain resident and family involvement with the assistance of 
the ombudsman program.
    Access to confidential information for ombudsman is 
critically important. We are recommending that this 
reauthorization ensure the private and unimpeded access by 
individuals to ombudsman service in a confidential setting, 
that it is not compromised. The sections of this act relating 
to the process of and limitations and disclosure of client 
information needs clarification and emphasis. It is important 
that the text of the Older Americans Act clarifies that the 
privacy provisions of the Health Insurance Portability and 
Accountability Act, better known as HIPPA, do not impede the 
access to resident health records by the ombudsman and 
representatives of the program.
    The Administration on Aging had declared in a memo that the 
ombudsman program representatives are performing a health care 
oversight function and they are not impacted by the HIPPA 
privacy rules. Throughout the country we have more and more 
people that can't speak for themselves and who have no legally 
authorized representative to speak on their behalf. It's really 
our duty, and we recommend that we add language to this act to 
encourage States to intensify their efforts to educate the 
public on the value and importance of completing documents to 
establish a trustee relationship.
    The Board on Aging and NASOP also support the 
recommendation to amend Title 2 to provide a base appropriation 
beginning at $1 million to the National Ombudsman Resource 
Center. It has proven to be a valuable site for ombudsman 
programs to obtain training resources and technical assistance. 
It would be extremely helpful to expand the center's training 
capacity and ability to work with State regulators to improve 
the investigative process used to deal with resident 
complaints.
    The Older Americans Act gives us a strong foundation and 
reauthorization gives us a window of opportunity to build an 
even more robust demonstration of the Nation's concern for our 
well-being of our elders. It is extremely important that 
Congress and the aging network come together to strengthen our 
long-term care ombudsman programs to provide a safe and home-
like environment.
    On behalf of Wisconsin's long-term care ombudsman program 
and NASOP as advocates for the Nation's most vulnerable 
facility residents and consumers of long-term care, I thank 
you, Senator Kohl, Ranking Member Corker, and the members of 
the committee for allowing me to share our thoughts on the 
reauthorization. Thank you.
    [The prepared statement of Heather Bruemmer appears in the 
Appendix on page 98.]
    The Chairman. Thank you very much, Ms. Bruemmer.
    Mr. Howell.

     STATEMENT OF TIMOTHY HOWELL, CEO, SENIOR CITIZEN HOME 
               ASSISTANCE SERVICES, KNOXVILLE, TN

    Mr. Howell. Thank you, Senators on the Special Committee on 
Aging, for allowing me to address you today. As the CEO of 
Senior Citizens Home Assistance Services that provides 
homemaker and personal care to 20 counties in East Tennessee, I 
see elders and people with disabilities every day that come to 
me with different situations. Although their stories are 
different, their goal is the same: to maintain their dignity. 
Their health may be fading and all their mental status 
diminishing, but they are still human beings, and their dignity 
should not be diminished over time.
    Senior Citizens Home Assistance Services was formed in 1970 
with a grant from the Older Americans Act as a study to see if 
people could use homemaker services to stay in their homes. 
Since then we have been on the battle of the forefront of 
maintaining dignity for our elders.
    The majority of the work that we do is through our 
homemaker and personal care services. We screen, hire, and 
train caregivers to travel to the home and provide light 
housekeeping, laundry, shopping, companionship, transportation, 
and personal care like bathing, feeding, toileting, and 
grooming. This year we will help over 2,500 people with over 
300,000 hours of one on one care to stay in their home.
    The good news of this story is that the agency receives 
funding from many different sources. We have a full fee private 
pay system so those that can afford to pay for the services 
can, and then we also receive money from Federal, State, 
Veterans Administration programs. But I think one of the best 
things that we have and something that we could have helped 
Senator Manchin with with his question is that we have a 
sliding scale fee for people that do not qualify for those 
government programs, but also may not have the ability to pay 
the full fee. We have a sliding scale fee because we are able 
to have fundraisers and we get United Way funding. So if 
somebody comes to us that does not have--that has a gross 
income that keeps them from the government programs, then we 
are still able to help them even though they may have expenses 
such as a home mortgage or medicines or things like that. So we 
are still able to help them with a sliding scale fee, and they 
can pay us like $7 an hour, $9 an hour, or $11 an hour, and so 
they can still get the help that they need to stay in their 
homes.
    Partnerships are key, we have found, in the battle to 
provide dignity. We get cleaning supplies donated to us from a 
local office company so that--for those that cannot afford to 
purchase them, and we also receive nonperishable foods from 
Second Harvest, which is another 501[c][3] in our county, and 
that allows us to give food to those that may not have the 
ability or the money to pay for their bills at the end of the 
month, and we can still get them food.
    So if you're looking for employment opportunities--and I 
understand, Mr. Kohl, that you might be since you're retiring--
we can hire you; we can train you to be a caregiver. In fact, 
our oldest caregiver was born in 1921. She is 90 years old and 
she brings an aspect to caregiving that a person my age cannot 
do. She is unique with her companionship. She works about 20 
hours a week, and she's able to talk to people and relate to 
them while she's cleaning their homes and helping them stay in 
their homes. So even on your worst days, she can give you a 
smile that can brighten up your life.
    In fact, over 50 percent of our 310 employees are older 
than 50. We have a great caregiver training program that our RN 
and nurse trainer uses to teach people to be a caregiver.
    Even with all our programs to keep people in their homes, 
we realize that the cost does become expensive at times as 
their need increases. This is why we built Renaissance Terrace, 
a 48-unit assisted living facility that charges $2200 per month 
for all the services of an assisted living facility in the 
State of Tennessee. We are able to keep the monthly fee low 
because we receive Federal, State, and local government funding 
from Knox County and from the City of Knoxville, as well as 
private donors and foundations to construct the building. With 
the construction cost funded, we only have to charge enough to 
pay for the operating costs, such as payroll and supplies.
    The people that live in our facility are able to pay for 
their help, or the VA may help, or in some cases family members 
may help pay for the fee. The important fact is that I am not 
here asking you for more money to pay for my assisted living 
for the residents of Renaissance Terrace. Through combining 
your one-time investment with other partners, we developed a 
program that can sustain itself, sustain itself through the 
residents paying for their care.
    I want to thank you for taking this challenge of providing 
care to the elders and persons with disabilities while keeping 
their dignity intact. I encourage you to look for solutions 
that can maintain and support themselves with an investment 
from you, but I realize that this will not always be the 
situation.
    Again, I thank you for allowing me to be here, and I will 
answer any questions that you may have.
    [The prepared statement of Timothy Howell appears in the 
Appendix on page 103.]
    The Chairman. Thank you, Mr. Howell.
    I'd like to ask you, Mrs. Marshall. Your home-delivered 
meals, how important is that in your day and in your week? What 
would you do if you didn't have the home-delivered meals 
system?
    Ms. Marshall. Well, it's hard to know, because I have been 
able through my whole life to be independent. My son is worried 
about the fact that I'm alone a lot of the time and he thought 
that there should be somebody looking in on me every day. So I 
ordered the meals on wheels. I get it Monday, Wednesday, and 
Friday, and there's always someone there in case I should fall 
or some accident of that sort.
    So that takes care of 3 days a week, and it also helps me 
as far as shopping and cooking for myself. The various foods 
that I get are well-balanced and healthy. They sometimes need 
seasoning or fixing up a little bit before you put them in the 
micro. But it's a very well-balanced, healthy diet, really, and 
I'm very grateful for it.
    On Tuesday and Thursday I'm on my own, and Saturday and 
Sunday. But I have been very grateful for the fact that I have 
wonderful sons handy to me and a daughter in New Hampshire who 
has been a boon to me. I'm very grateful for the help of my 
children. It may be a burden on them. I'm sure in many ways it 
is. But I don't hear about it.
    The Chairman. How often do you talk to your daughter in New 
Hampshire?
    Ms. Marshall. Well, I really grew up in two communities. I 
had a grandmother in New Hampshire who had a stroke in her 60s 
and she lived--she could not speak very well, but she lived at 
home. And my mother went up to New Hampshire in June every year 
after school was done and took care of her or helped take care 
of her, because she was in a wheelchair and completely unable 
to do anything for herself.
    In fact, I never really got to know her because she 
wouldn't talk very much. She would say ``How be ya?'' and that 
was about it. But she was very much beloved by her family, and 
I have many pictures of her in the wheelchair surrounded by 
family members.
    There wasn't such a thing as meals on wheels at that time. 
Generally, there were people, and in New Hampshire many country 
people, because this was in the White Mountains, a village in 
the White Mountains. So we really had two residences growing 
up. It was a wonderful, wonderful experience.
    The Chairman. Good.
    To the other members of the panel, what is your principal 
recommendation to us as we go about reauthorizing OAA? Mr. 
Richtman, would you like to give us your opinion?
    Mr. Richtman. Well, I think, as I mentioned in the 
testimony, we feel it is very important that the committee take 
into account ways to improve coordination of services, to 
identify the best practices, things that work in local 
communities, and make sure that all of the agencies involved 
have the resources to replicate these best practices around the 
country.
    If I could, Mr. Chairman, to follow up on the question you 
asked about home-delivered meals, and I hope this isn't 
presumptuous, but I could give this as a recommendation. You 
mentioned that I was staff director of this committee in the 
1980s and I was involved in previous reauthorizations. There 
was a member of this committee who was, shall we say, cynical 
about the Older Americans Act activities, and one of the 
nutrition service providers from that Senator's State arranged 
to take that member of the Senate to deliver meals on a truck. 
The reaction that the Senator had when he met people who had no 
other way to get a hot meal or have any interaction with 
anybody turned him around, and he became a strong advocate for 
the program.
    So I would recommend some first-hand experience by members 
of the committee with some of these programs.
    The Chairman. That's very good.
    Mrs. Bruemmer.
    Ms. Bruemmer. Thank you. I think it's really important that 
our vulnerable residents in long-term care facilities have 
access to our ombudsman services, which I addressed in my 
testimony. We have so many people who are living in long-term 
care facilities that don't have family, and it's important that 
the ombudsman, who is their advocate, be able to express their 
best interests.
    Secondly, I think we all know--and you recently had a 
wonderful hearing on elder abuse. It is occurring in our world, 
unfortunately, and it's our duty to protect our most vulnerable 
people that we serve. So it would be wonderful if we could get 
additional supports and funding to provide training and 
prevention.
    You know, we talk about prevention frequently, and it 
really does make a considerable difference if we can educate 
people on how to prevent. We provide prevention services in 
nursing homes and assisted living to staff, and it really has a 
positive impact for the people that they serve. And also 
supporting the National Ombudsman Resource Center, which is 
such a tremendous support to all the States in the Nation and 
really benefits our wonderful residents that we serve.
    Thank you.
    The Chairman. Thank you, Ms. Bruemmer.
    Mr. Howell, what's your principal recommendation?
    Mr. Howell. I would suggest looking for partnerships and 
funding opportunities that could be a one-time investment for 
the government, and then maybe those programs could sustain 
themselves over time through private pay.
    Then also I'd like to say that through the single point of 
entry system we need more case management from the providers at 
the time that the help is being asked for. People go through 
many questions to get into the enrollment process, at least I 
know in the State of Tennessee they do, and they get asked 
those questions several different times. So I think we need a 
system to where once you are asked those questions once it is 
shared among the service providers and the case managers and 
the MCOs, so that you don't have to keep going back and asking 
that elderly person again and again and again, now, what is 
your income, what is the help that you need, and so forth. 
Because I know we are going to go out and do an intake and 
we're looking for things like, does that person have a pet, 
because I don't need to send somebody as a caregiver into a 
home that has cat allergies when that person has a cat. Or if 
they smoke I don't need to send somebody in that home that has 
asthma.
    So if we don't know those things up front, we're already 
setting ourselves up for disaster in helping that person stay 
in their home when we don't get all the information that we 
need.
    So those are my two recommendations, just shared 
information among everyone and look for partnerships so that 
programs can sustain themselves over time.
    The Chairman. Thank you very much, Mr. Howell.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    Ms. Marshall, thank you so much for being here. You 
mentioned you hope you weren't a burden for your children or 
grandchildren. I know that's not the case. I'm sure you're a 
blessing, and there's probably a whole line of people in your 
community willing to adopt you if they ever felt that was the 
case. We thank you very much for being here and putting a face 
on an issue that all of us care about. So thank you very much.
    Mr. Richtman, I know as director of the National Committee 
to Preserve Social Security and Medicare you've been very 
critical of some legislation I've offered to get spending back 
to historic norms over the next decade. I understand that, and 
that's the world we live in today.
    Also, it seems you've been very resistant to changes to 
Medicare that might make it sustainable. There are a lot of 
people in this town that know Medicare is going to be insolvent 
or bankrupt in the year 2024. There's no getting around that. 
CBO even says by 2020. I'm wondering if you have put forth your 
own innovations or changes to cause Medicare to be solvent and 
to cause it to be there for seniors down the road?
    Mr. Richtman. Well, of course this isn't the subject of 
this hearing, but I will respond. I think the legislation 
you're talking about is the bill you authored with Senator 
McCaskill; is that correct?
    Senator Corker. That's correct, yes.
    Mr. Richtman. The concern we have is we feel that some of 
the process that legislation deals with will lead to dramatic 
cuts in the programs we advocate for, and will do so in a way 
that--a more indirect way that maybe politically is easier, but 
nevertheless the impact would be the same.
    On Medicare, you're right, opposed to the bill that was 
defeated yesterday in the Senate. It had passed the House. We 
feel that Chairman Ryan's proposal to deal with Medicare in 
effect eliminates the program, turns it into something entirely 
different.
    Senator Corker. That really wasn't what I asked, and I 
understand that and I've read some of the things you've said 
about that. But my question is have you offered your own 
solution, since putting our head in the sand would mean that 
future wonderful people like Mrs. Marshall would not be able to 
benefit from the program.
    Mr. Richtman. I was going to get around to that. We 
supported the Affordable Care Act, which has some very 
significant improvements in Medicare, and----
    Senator Corker. Even with the Affordable Care Act, it's 
insolvent in the year 2024. So I'm trying to ask----
    Mr. Richtman. Well, you know, were it not for the 
Affordable Care Act, the Medicare program would be insolvent 
much earlier than 2025, which is the date that the trustees 
have issued. It's true that the date of insolvency went back 4 
or 5 years from previous----
    Senator Corker. Closer to today.
    Mr. Richtman. Closer to today. Now, a lot of that has to do 
with the recession, less revenue coming into the program.
    Senator Corker. Mr. Richtman, are you going to answer my 
question?
    Mr. Richtman. I'm trying to, Senator.
    Senator Corker. Well, I wish you'd just get--have you 
offered solutions to the program? I haven't heard any. Instead 
of sandbagging people that are, have you offered solutions?
    Mr. Richtman. Our solution, which I was trying to explain, 
included the Affordable Care Act. That is a very positive 
improvement of Medicare; added 12 years--I'd say that's a 
pretty good solution--added 12 years to the solvency of the 
program, added benefits for seniors that they did not have 
before, such as preventive care without any out-of-pocket 
costs. So I offer that as a solution. I think it's becoming 
more and more popular.
    Senator Corker. It's very disappointing that someone in 
your position would stonewall a situation so important as this.
    Let me ask you this. Chairman Kohl and I have both been 
very fortunate in life, he far more than me, but we both have.
    Mr. Richtman. Me too.
    Senator Corker. Would you agree that it would be an 
appropriate thing for folks like Mr. Kohl and myself to have 
minimal, if almost no, benefit, where, in other words, Medicare 
would be more based on ability to pay, where we would have to 
pay far more for the benefits of Medicare than someone else who 
might not have been as fortunate? Would you agree that that 
would be at least a portion of a solution, even though that 
would not solve it? Would that be something that your 
organization would support?
    Mr. Richtman. No, we would not--you're talking about, I 
assume, means testing.
    Senator Corker. That's exactly right.
    Mr. Richtman. We are opposed to means testing both Medicare 
and Social Security, and I'll tell you why. These programs, all 
the polling shows that they are tremendously popular, because 
they're insurance programs. People pay into them while they're 
working, and they receive the benefits. Means testing these 
programs turns these programs into welfare. That's what welfare 
is, a means-tested program.
    I've said this at many events that I participated in. If 
you ask a group of seniors, how many of you are on Social 
Security, how many of you are on Medicare, and usually at my 
meetings they all are. And you say, how many of you are ashamed 
to be on these programs, nobody is. But if you ask them, would 
you be proud to be on welfare, they wouldn't. And I think 
turning these programs into welfare programs, which is what 
means testing does, puts them in a whole different category, 
and the support, tremendous majority support for these 
programs, would dissipate.
    So we're opposed to that.
    Senator Corker. Well, portions of Medicare already are 
means-tested. What I hear you saying is you're more interested 
in generational theft than you are in----
    Mr. Richtman. That's really not fair, Senator. Most of the 
surveys we've done--in fact, we just did one with Celinda 
Lake--our members, who are almost all on the program, they are 
just as concerned that these programs be there for their 
children and their grandchildren. And I feel that we reflect 
that, and really, I take issue with the charge that we're 
interested in that kind of generational warfare.
    Senator Corker. Well, I'm very disappointed that you've 
offered no real solutions. But I look forward to talking with 
you in another venue with that.
    Mr. Howell, thank you so much for traveling up here. I 
notice that, on the other hand, your organization does have a 
sliding scale ability to pay, and you've found that to be 
something that's very useful. I wonder if you might describe 
that in a little bit more detail?
    Mr. Howell. I'd be glad to. When our board set up the 
nonprofit in 1970 they wanted to be able to help everyone that 
came for assistance to the agency. So the sliding scale fee was 
one good way to do that. I think we have found many benefits 
from that, and one of them being if we are going to United Way 
and asking them for funds and let's say they appropriate to us 
in Knox County somewhere around $120,000 and then we provide 
help to a person over here and they are able to pay $7 an hour 
and that help costs us somewhere around $18, $19 an hour, then 
we really only have to come up with about another $11 per hour 
to get that funding.
    So what that does is that allows that money to be stretched 
out further and to help more people. So we don't usually have a 
waiting list for services, so if someone calls me I can usually 
get the help out to them as quickly as they need it. I think 
that telephone call is important because it's saying, I've 
given up my ability to do something in my life and so now I 
need help; will you come do that? So we don't have to put them 
on a waiting list to do so. We can be there and help them.
    I also think in a lot of ways it makes us more accountable 
because those people are paying for that service. So even--and 
that sliding scale fee has increased over time. But even if 
they're paying $7 an hour, to a person that is in their 80s or 
in their 90s that's a lot of money to something that they 
consider to be a maid service come in and helping them clean or 
getting them transportation or helping them go grocery 
shopping, getting their medicines, and so forth.
    So that is a lot of money to them, and I think some of our 
proudest moments are when we get a check issued to us from 
someone and it's for $28, and that's basically 4 hours of 
service, but on the bottom of it it says ``Thank you,'' because 
how many people write ``Thank you'' on the bottom of their 
checks when they pay their bills? They do that because they 
know we are keeping them in their homes with some help. Just a 
little bit of help will keep them there.
    So I think the sliding scale fee has been a great system 
for the people that we serve.
    Senator Corker. Thank you. And has there been any stigma 
attached to that, as Mr. Richtman just alluded to?
    Mr. Howell. In the services that we provide, no, sir, I 
don't know of any stigma attached to that. We do help people 
that qualify for the government programs and they're in those 
and the government is paying for them, and we also help people 
that have the ability to pay the full fee. So our caregiver may 
go into the home of a very wealthy person one day and then be 
in the home of a poor person the next day. We train them to 
treat them with the same dignity across the board and with the 
same help when they go in that home and provide that service to 
them.
    Senator Corker. Well, listen; thank you very much for being 
here, and I look forward to the rest of your testimony.
    Thank you.
    The Chairman. Thank you very much, Senator Corker.
    Senator Casey.
    Senator Casey. Thank you, Mr. Chairman.
    What I'll do, for the record, is to submit questions for 
Mr. Howell, Ms. Bruemmer, and Max Richtman because I have a 
constituent on the left there, the Mayor, former Mayor of York, 
and I wanted to speak directly to her for a couple of minutes. 
You three don't mind, I don't think, but I'm grateful. I 
appreciate all of your testimony and the work that you do. I've 
known Max Richtman a long time, and I appreciate his advocacy 
for many years on behalf of older citizens.
    But I did want to direct my maybe just a comment or two, 
Mayor. First of all, once a mayor always a mayor, and we 
appreciate your public service to the city of York. Being a 
Mayor, being a member of City Council at any time, is a 
difficult job, and we appreciate what you did and what you 
continue to do for the community in York, and for your 
testimony today.
    I was struck by some, a couple of lines in your testimony 
which in some ways really summarized or encapsulated what we're 
talking about today, the Older Americans Act. I was looking at 
your testimony, the last page of your testimony, when you say, 
and I'm quoting: ``Many recipients of services are like me. 
They just need one or two little bits of help.'' A pretty good 
summary of what a lot of people need, and sometimes it varies.
    Then you go on to say, and I'm quoting again just a line or 
two beyond that, quote: ``The act is flexible that way and 
allows the senior to customize their care plan to just what 
they need to stay healthy,'' unquote.
    We can often talk and talk in this town describing 
legislation paragraph after paragraph. Rarely do we have a 
witness who's able to sum it up very directly and with the 
personal experience that you have brought to this. You've been 
able to, through your testimony today and I know in other ways, 
bring to life and be--in a sense, bear witness to the benefits 
of these services. And we're greatly, greatly appreciative of 
that, because you didn't have to do that. You could have just 
lived with the benefit of these services, but to travel here 
and to bring your story and your witness to this is very, very 
important, and we're truly grateful.
    I know that the whole audience fell in love with you today. 
I don't think anyone who knows you is surprised by that. But we 
especially appreciate your testimony and your public service.
    I guess the last thing I'd say is, again quoting you, you 
say a paragraph later, quote: ``The beauty of the Older 
Americans Act is that it allows you to retain your dignity, 
health, and independence,'' unquote. You have defined 
``independence,'' and we're grateful that you're willing to 
share your story with us today. And if I can think of an 
intelligent question I'll write it down and send it to you, but 
I think the answer to most of our questions is through your 
testimony and through your personal witness.
    Thank you very much.
    Ms. Marshall. Thank you so much.
    The Chairman. Thank you, Senator Casey.
    I have also one last question for you, Mrs. Marshall. Might 
you consider making a comeback in politics and running for 
Mayor?
    [Laughter.]
    Ms. Marshall. Well, I have been active in the grassroots, a 
grassroots group, and I helped to rejuvenate the Democratic 
Party because I'm a Roosevelt Democrat. I have always felt that 
when people needed help they should have some programs that 
help them, and it just shouldn't be such a matter of who has 
wealth and who hasn't. Human life is precious.
    The Chairman. Thank you.
    Well, we thank all of you for being here today. This has 
been very important to us as we continue with the 
reauthorization of OAA. You have made an effort to be here 
today and it's important and you've made a big contribution. 
Thank you so much.
    Thank you all for being here.
    [Whereupon, at 3:38 p.m., the hearing was adjourned.]
        
                        APPENDIX

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                  <all>

</pre></body></html>
